No.

In The

Supreme Court of the United States
____________

State of Arizona,

v.

Applicant,

Hector Sebastian Nunez-Diaz,
Respondent.

____________
APPLICATION DIRECTED TO THE HONORABLE ELENA KAGAN
FOR AN EXTENSION OF TIME TO FILE A PETITION FOR A
WRIT OF CERTIORARI TO THE SUPREME COURT OF ARIZONA
____________
MARK BRNOVICH
ATTORNEY GENERAL
ORAMEL H. (O.H.) SKINNER
Solicitor General
DREW C. ENSIGN*
Deputy Solicitor General
2005 N. Central Ave.
Phoenix, AZ 85004
(602) 542-5025
* Counsel of Record
October 3, 2019

Counsel for State of Arizona

To the Honorable Elena Kagan, Associate Justice of the Supreme Court of the
United States and Circuit Justice for the Ninth Circuit:
The State of Arizona intends to file a petition for a writ of certiorari in this
case and respectfully seeks a 30-day extension of time to do so. The jurisdiction of
this Court would be invoked pursuant to 28 U.S.C. § 1254(1).
This case presents important issues of federal law, including whether aliens
not lawfully present in the United States (and thus subject to deportation) may
establish prejudice under Strickland v. Washington, 466 U.S. 668 (1984), for
deficient attorney advice regarding the immigration law consequences of pleading
guilty to deportable felonies.
The lower courts are divided on this issue. The Fourth, Fifth, and Eleventh
Circuits have held that unauthorized aliens are categorically barred from
establishing such prejudice.1 So too have the Supreme Court of Tennessee and the
Texas Court of Criminal Appeals,2 as have a broad array of federal district courts.3

United States v. Batamula, 823 F.3d 237, 242 (5th Cir.) (en banc) cert. denied 137
S. Ct. 236 (2016) (“[C]ontrolling law unequivocally” establishes that a criminal
defendant cannot “show prejudice because he was already deportable.”); Gutierrez v.
United States, 560 F. App’x 924, 927 (11th Cir.) cert. denied 135 S. Ct. 302 (2014)
(holding that Strickland’s prejudice requirement was not satisfied because the
defendant “never obtained legal status, and thus continued to be subject to
removal”); United States v. Sinclair, 409 F. App’x 674, 675 (4th Cir. 2011) (holding
that defendant’s “substantial rights were unaffected because he was an illegal alien
and therefore his guilty plea had no bearing on his deportability”).
2 Garcia v. State, 425 S.W.3d 248, 261 n.8 (Tenn. 2013) (“[C]ourts have consistently
held that an illegal alien who pleads guilty cannot establish prejudice”
under Padilla.) (collecting cases); State v. Guerrero, 400 S.W.3d 576, 588-89 (Tex.
Crim. App. 2013) (“Unlike Jose Padilla, appellee was an undocumented immigrant
and was deportable for that reason alone, both in 1998 and today…. The prospect of
1

In contrast, the Supreme Court of Iowa has held that an unauthorized alien
can potentially show prejudice under Strickland by pointing to specific supporting
evidence, such as potential eligibility for cancellation of removal. See Diaz v. State,
896 N.W.2d 723, 733-34 (Iowa 2017). And the Supreme Court of Arizona has now
held that the defendant need not actually demonstrate any actual prejudice with
record evidence; instead it is enough that the defendant “would [not] necessarily
have been removed had he gone to trial and been acquitted.” State v. Nunez-Diaz,
444 P.3d 250, 255 (Ariz. 2019) (opinion attached hereto as Exhibit A).
Despite the complete absence of evidence supporting Strickland prejudice,
the Arizona Supreme Court concluded such prejudice existed. Nunez-Diaz, 444 P.3d
at 254-55.4 In doing so, the court effectively established a presumption of prejudice
in all cases involving deficient advice regarding deportation, which relieves criminal
defendants of satisfying their burden under Strickland. Its decision thus also
directly conflicts with Strickland and this Court’s recent decision in Weaver v.
Massachusetts, 137 S. Ct. 1899 (2017), which put the burden on defendants to
establish prejudice, rather than requiring the government to prove harmlessness.
removal therefore could not reasonably have affected his decision to waive counsel
and plead guilty.”)
3 See, e.g., United States v. Aceves, No. 10-00738, 2011 WL 976706, at *5 (D. Haw.
Mar. 17, 2011); United States v. Gutierrez-Martinez, No. 10-2553, 2010 WL 5266490,
at *4 (D. Minn. Dec. 17, 2010); Mudahinyuka v. United States, No. 10-5812, 2011
WL 528804, at *4 (N.D. Ill. Feb. 7, 2011); United States v. Perea, No. 11-2218, 2012
WL 851185, at *5 n.4 (D. Kan. Mar. 8, 2012); United States v. Perez, No. 8-296, 2010
WL 4643033, at *3 (D. Neb. Nov. 9, 2010).
4 Notably, Nunez-Diaz’s own amici admitted that “[n]o evidence was presented
about either Mr. Nunez understood about his immigration status or whether he was
eligible for any discretionary relief upon removal.” Brief of Amici Curiae Arizona
Attorneys For Criminal Justice et al. (filed Ariz. April 8, 2019).
2

Weaver, 137 S. Ct. at 1911 (“Strickland prejudice is not shown automatically.
Instead, the burden is on the defendant[.]”); Strickland, 466 U.S. at 693
(recognizing a “general requirement that the defendant affirmatively prove
prejudice”).
An extension is warranted because lead counsel for the State has numerous
other commitments during the same time period, including responsibility for
drafting or reviewing three other merits briefs in the Arizona Supreme Court in
cases that were just recently granted review, all presently due on the same day as
the State’s petition here. The State therefore respectfully seeks a 30-day extension
of time, from October 155 to November 14, 2019, to file a petition for certiorari.
CONCLUSION
For the foregoing reasons, the undersigned respectfully requests that this
Court extend the deadline to file a petition for certiorari in this action from October
15 to November 14, 2019.

Ninety days from the Arizona Supreme Court’s July 16 decision is October 14,
which is a federal holiday (Columbus Day). See 5 U.S.C. § 6103.
5

3

October 3, 2019

MARK BRNOVICH
ATTORNEY GENERAL
0RAMELH. (O.H.) SKINNER

Solicitor General
DREW C. ENSIGN*
Deputy Solicitor General
2005 N. Central Ave.
Phoenix, AZ 85004
(602) 542-5025

* Counsel of Record

Counsel for State of Arizona

4

